 Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL





  VIRGINIA PROPERLY OBLIGATED

 AND LIQUIDATED MOST TARGETED

FUNDS UNDER THE CHILD CARE AND

  DEVELOPMENT FUND PROGRAM




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Stephen Virbitsky

                                                Regional Inspector General


                                                       October 2013

                                                       A-03-12-00251

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


 Virginia properly obligated and liquidated most of its Child Care and Development
 targeted funds for fiscal years 2007 through 2009. Of the $21.6 million of targeted
 funds that we reviewed, Virginia did not comply with requirements for the use of
 $51,000.

WHY WE DID THIS REVIEW
The Child Care and Development Fund (CCDF) provide discretionary funding for three targeted
funds known as Infant and Toddler, Quality, and School Age Resource and Referral funds.
These targeted funds are used for activities that improve the availability, quality, and
affordability of childcare and to support the administration of these activities. The funds are
100 percent federally funded. Previous Office of Inspector General reviews found that some
States did not always comply with Federal requirements when claiming targeted funds for
reimbursement.
The objective of this review was to determine whether the Virginia Department of Social
Services (State agency) complied with Federal requirements for the use of CCDF targeted funds
for Federal reimbursement for Federal fiscal years (FY) 2007 through 2009.

BACKGROUND
Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to the Administration for
Children and Families (ACF) for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program requirements state
that a State agency has 2 FYs to obligate CCDF funds and a third FY to liquidate those funds.
The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.
In Virginia, the State agency is the lead agency. As the lead agency, the State agency is required
to oversee the expenditure of funds by contractors, grantees, and other agencies of the Virginia
State government to ensure that the funds are expended in accordance with Federal requirements.
The State agency claimed CCDF targeted funds totaling $21,561,884 on its ACF-696 reports for
FYs 2007 through 2009. This amount included $4,946,576 of funding provided by the American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (February 17, 2009). We reviewed the
entire amount.

WHAT WE FOUND
Of the $21,561,884 of targeted funds that we reviewed, the State agency complied with Federal
requirements for the obligation and liquidation of $21,510,584 for FYs 2007 through 2009.
However, the State agency did not comply with Federal requirements for the use of $51,300 in
CCDF targeted funds. Specifically, the State agency improperly (1) obligated $17,174 of


Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)         i
targeted funds for expenditures claimed before the obligation period, and (2) reobligated $34,126
of unexpended grant funds after the obligation period had ended.
The State agency did not have written policies and procedures in place to guide appropriate
monitoring of the obligation and liquidation of the targeted funds. In the absence of necessary
written policies and procedures, the State agency could not always identify which expenditures
would be allowable for a particular FY.

WHAT WE RECOMMEND
We recommend that the State agency:

    •	 refund to the Federal Government $51,300 for targeted funds that were not properly
       obligated and

    •	 develop written policies and procedures to guide in appropriate monitoring of the 

       obligation and liquidation of CCDF targeted funds.


STATE AGENCY COMMENTS
In written comments on our draft report, the State agency concurred with our findings and
recommendations and described the action it had taken, or planned to take, to address them.




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)         ii
                                                     TABLE OF CONTENTS



INTRODUCTION ......................................................................................................................1


          Why We Did This Review ..............................................................................................1


          Objective .........................................................................................................................1


          Background .....................................................................................................................1


          How We Conducted This Review...................................................................................2


FINDINGS             .............................................................................................................................2


          State Agency Improperly Obligated Targeted Funds Before Obligation Period ............2


          State Agency Improperly Reobligated Targeted Funds After Obligation Period ...........3


          State Agency Did Not Have Written Policies and Procedures in Place ........................3


RECOMMENDATIONS ............................................................................................................4


STATE AGENCY COMMENTS ...............................................................................................4


APPENDIXES


          A: Related Office of Inspector General Reports ............................................................5


          B: Audit Scope and Methodology..................................................................................6


          C: 	Federal Requirements Related to Child Care

                 and Development Fund Targeted Funds .............................................................8


          D. State Agency Comments ...........................................................................................9





Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)                                                              iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW
The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds, administered at the Federal level by the U.S. Department of Health and Human Services,
Administration for Children and Families (ACF), and known as Infant and Toddler, Quality, and
School Age Resource and Referral funds. These targeted funds are used for activities that
improve the availability, quality, and affordability of childcare and to support the administration
of these activities. The funds are 100 percent federally funded. Previous Office of Inspector
General (OIG) reviews found that some States did not always comply with Federal requirements
when claiming targeted funds for reimbursement. Appendix A contains a list of related OIG
reports on these targeted funds.

OBJECTIVE
The objective of this review was to determine whether the Virginia Department of Social
Services (State agency) complied with Federal requirements for the use of CCDF targeted funds
for Federal reimbursement for Federal fiscal years (FY) 2007 through 2009.

BACKGROUND
Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e.,
2 FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. The following table shows the obligation and liquidation
periods for each FY covered by our review.

                           Table 1: Obligation and Liquidation Periods

                   Obligation Period         Obligation Period           Liquidation Period
         FY           Start Date                 End Date                    End Date
        2007           10/1/2006                 9/30/2008                   9/30/2009
        2008           10/1/2007                 9/30/2009                   9/30/2010
        2009           10/1/2008                 9/30/2010                   9/30/2011


The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.
In Virginia, the State agency is the lead agency. As the lead agency, the State agency is required
to oversee the expenditure of funds by contractors, grantees and other agencies of the Virginia
State government to ensure that the funds are expended in accordance with Federal requirements.
The State agency entered into contracts with these entities that would expend the funds; for each
such contract, the funds were considered obligated with the execution (that is, the signing) of the
contract.


Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)         1
HOW WE CONDUCTED THIS REVIEW
We reviewed the $21,561,884 of targeted fund expenditures that the State Agency claimed on its
ACF-696 reports for FYs 2007 through 2009. 1 This amount included $4,946,576 of funding
provided by the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (February
17, 2009) (Recovery Act).
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.
Appendix B contains details of our audit scope and methodology, and Appendix C contains
details on the Federal and State requirements related to CCDF targeted funds.

                                                   FINDINGS
Of the $21,561,884 of targeted funds that we reviewed, the State agency complied with Federal
requirements for the obligation and liquidation of $21,510,584 for FYs 2007 through 2009.
However, the State agency did not comply with Federal requirements for the use of $51,300 in
CCDF targeted funds. Specifically, the State agency improperly (1) obligated $17,174 of
targeted funds for expenditures claimed before the obligation period, and (2) reobligated $34,126
of unexpended grant funds after the obligation period had ended.
The State agency did not have written policies and procedures in place to guide appropriate
monitoring of the obligation and liquidation of the targeted funds. In the absence of necessary
written policies and procedures, the State agency could not always identify which expenditures
would be allowable for a particular FY.
STATE AGENCY IMPROPERLY OBLIGATED TARGETED FUNDS BEFORE
OBLIGATION PERIOD
Federal regulations specify that CCDF funds must be obligated 2 in the FY in which the funds
were awarded or in the succeeding FY and that any funds not obligated during this period will
revert to the Federal Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)).
Contrary to these Federal requirements, the State agency improperly obligated $17,174 in
targeted funds. The State agency entered into contracts with contractors and grantees that would
expend the funds; for each such contract, the funds were considered obligated with the execution
of the contract. The State agency did not, however, always obligate targeted funds within the
required timeframe for each FY in our audit period. The obligation date for a FY 2007 claimed

1
  The 3-year obligation and liquidation cycle described in this report creates an inherent delay in terms of when
those funds can be regarded as closed for adjustment and then subject to audit.
2
 The determination of whether funds have been obligated and liquidated will be based on State or local law; if there
is no applicable State or local definition, the Federal definition of obligations and outlays (expenditures at 45 CFR
§ 92.3) apply. We are unaware of any State or local laws that define these terms.



Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)                               2
expenditure of $17,174 was July 1, 2006. 3 The allowable obligation period for FY 2007 funding
is the 2 FYs beginning October 1, 2006. Therefore, the funds were obligated before the
obligation period began.
STATE AGENCY IMPROPERLY REOBLIGATED TARGETED FUNDS AFTER
OBLIGATION PERIOD
Federal regulations specify that CCDF funds must be obligated in the FY in which the funds
were awarded or in the succeeding FY and that any funds not obligated during this period will
revert to the Federal Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)). In addition, any
funds not liquidated within 1 year of the end of the obligation period will revert to the Federal
Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)). Furthermore, funds that are properly
obligated and liquidated but are subsequently returned to the grantee within the original
obligation period can be reobligated and liquidated (45 CFR § 98.60(g)(1)). If such funds are
received by the grantee after the applicable obligation period, they must be returned to the
Federal Government (45 CFR § 98.60(g)(2)).
Contrary to these Federal requirements, the State agency improperly reobligated $34,126 of
targeted grant funds that remained after the obligation periods had ended. This amount included
$4,200 in FY 2009 funds provided under the Recovery Act. Although the funds were initially
obligated properly, these unused funds could not be reobligated because the obligation period
had ended.

                                 Table 2: Improperly Reobligated Funds

              Fiscal            Obligation Period             Reobligation
              Year                  End Date                      Date         Amount
              2007               9/30/2008                    02/05/2009       $ 16,923
              2008               9/30/2009                    10/30/2009          3,254
              2009               9/30/2010                    03/01/2011          9,749
              2009               9/30/2010                    06/22/2011          1,700
              2009               9/30/2010                    06/27/2011          2,500

STATE AGENCY DID NOT HAVE WRITTEN POLICIES AND
PROCEDURES IN PLACE
The State agency did not have written policies and procedures in place to guide appropriate
monitoring of the obligation and liquidation of the targeted funds. In the absence of necessary
written policies and procedures, the State agency could not always identify which expenditures
would be allowable for a particular FY.

Written policies and procedures regarding appropriate monitoring can provide the State agency
with the tools to ensure that targeted funds are obligated according to the time frame specified in
Federal requirements.



3
    This amount was also claimed as an FY 2006 expenditure.


Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)           3
                                       RECOMMENDATIONS
We recommend that the State agency:

    •	 refund to the Federal Government $51,300 for targeted funds that were not properly
       obligated and

    •	 develop written policies and procedures to guide in the appropriate monitoring of the
       obligation and liquidation of CCDF targeted funds.


                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described the action it had taken, or planned to take, to address them.
The State agency’s comments appear in their entirety as Appendix D.




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)      4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS



                                                                        Report
                            Report Title                                                    Date Issued
                                                                        Number
    Review of Unexpended Infant and Toddler Targeted
    Funds and Quality Targeted Funds Claimed by the                  A-07-07-00231
                                                                                              8/2008
    Iowa Department of Human Services for Fiscal Years
    1998–2003
    Iowa Improperly Claimed Some Child Care and                      A-07-11-03163
                                                                                              3/2012
    Development Targeted Funds
    Michigan Properly Obligated and Liquidated Targeted
                                                                     A-05-12-00062
    Funds Under the Child Care and Development Fund                                           4/2013
    Program
    Ohio Properly Obligated and Liquidated Targeted                  A-05-12-00061
    Funds Under the Child Care and Development Fund                                           4/2013
    Program
    Nebraska Improperly Claimed Some Child Care and                  A-07-12-03175
                                                                                              4/2013
    Development Targeted Funds




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)                 5
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY


SCOPE


We reviewed $21,561,884 of targeted fund expenditures claimed by the State agency for FYs
2007 through 2009. This amount included $4,946,576 of funding provided by the Recovery Act.
We did not perform a detailed review of the State agency’s internal controls because our
objective did not require us to do so. We limited our review to the controls related to the
obligation and liquidation of the targeted funds.
We conducted fieldwork at the State agency in Richmond, Virginia, from September 2012
through May 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal laws, regulations, and program guidance, as well as State
       laws and the approved Virginia CCDF State plans;

    •	 reviewed the ACF-696 reports for FYs 2007 through 2009 to determine the amount of
       targeted funds that the State agency claimed;

    •	 interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
       understanding of how the reports were prepared, how the targeted funds were reported,
       and what documentation was maintained to support expenditures on the reports;

    •	 reconciled all CCDF targeted fund expenditures claimed on the ACF-696 reports to the
       State agency’s documentation used to prepare the reports;

    •	 reviewed the State agency’s contracts with the contractors, grantees, and other agencies
       of the Virginia State government to determine the dates on which the contracts were
       signed in relation to the obligation requirements of the targeted funds for FYs 2007
       through 2009;

    •	 reviewed the State agency’s payment dates to contractors, grantees, and other agencies of
       the Virginia State government in relation to liquidation requirements of the targeted funds
       for FYs 2007 through 2009;

    •	 reviewed accounting documentation maintained by the State agency to support

       adjustment transactions;


    •	 reviewed documentation submitted by contractors to the State agency in support of the
       expenditure of targeted funds; and

    •	 discussed the results of our review with State agency officials on May 2, 2013.


Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)         6
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)      7
       APPENDIX C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE 

                AND DEVELOPMENT FUND TARGETED FUNDS


FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 9860(d)(7)) states that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”

Federal regulations (45 CFR § 98.60(g)) require that funds that were properly obligated and
liquidated but are subsequently returned to the grantee within the original obligation period
shall,“(1) if received by the Lead Agency during the applicable obligation period … be used for
activities specified in the Lead Agency’s’ approved plan and must be obligated by the end of the
obligation period; or (2) if received after the end of the applicable obligation period … be
returned to the Federal government.”

ACTIVITY REGULATIONS

Federal regulation (45 CFR § 98.16(h)) require that the approved CCDF State plan include ‘[a]
description of the activities to provide comprehensive consumer education, to increase parental
choice, and to improve the quality and availability of child care, pursuant to [45 CFR] § 98.51.”

Federal regulations (45 CFR §§ 98.51(a) and (b)) require that no less than 4 percent of the
aggregate funds be spent on activities to improve the quality of childcare and that the Lead
Agency describe in the CCDF State plan the activities it will fund under the quality activities
(which includes the targeted funds).




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)           8
                         APPENDIX D: STATE AGENCY COMMENTS





                         COMMONWEALTH of VIRGINIA
                                  DEPARTMENT OF SOCIAL SERVICES

August 20, 2013
Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, Pennsylvania 19106

RE: Report No. OIG-VA-03-12-00251

Dear Mr. Virbitsky,

Thank you for the opportunity to respond to OIG's Office of Audit Services above
referenced Draft Report on the results of an audit of Child Care & Development Fund
(CCDF) "Targeted Funds" expenditures claimed by the Virginia Department of Social
Services (DSS) for Federal Fiscal Years (FFY) 2007 through 2009. DSS concurs with your
findings and recommendations, and our responses are shown below.

DSS RESPONSE to OIG Recommendations

OIG Recommendation 1: Refund to the Federal Government $51,300 for targeted funds that
were not properly obligated.

DSS RESPONSE: DSS concurs with this recommendation and within 30 days following the
issuance of the final audit report, DSS will refund to the Federal Government $51,300.

OIG Recommendation 2: Develop written policies and procedures to guide inappropriate
monitoring of the obligation and liquidation of CCDF targeted funds.

DSS RESPONSE: DSS concurs with this recommendation and procedures to facilitate the
monitoring of federal obligation and liquidation of CCDF Targeted Funds requirements have
been written and disseminated within the appropriate DSS processing units.
                                    801 East Main Street • Richmond, VA 23219·2901
                            http://www.dss.virgjnia.gov • 804-726-7000 • TOO 800-828·1120




Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)   9
Please contact Barbara Newlin, CCDF State Administrator, at 804-726-7398 if additional
information is required.



                                         Sincerely,


                                         /Margaret Ross Schultze/


                                         Commissioner



 MRS/mhl

 cc:	    Michael Walsh, Audit Manager

         Paul McWhinney, Deputy Commissioner

         J.R. Simpson, Chief Financial Officer

         Barbara Newlin, CCDF State Administrator





Virginia Properly Obligated and Liquidated Most Child Care Targeted Funds (A-03-12-00251)   10
